<html>
<title> - CONTINUING PROBLEMS IN USDA'S ENFORCEMENT OF THE HUMANE METHODS OF SLAUGHTER ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
  CONTINUING PROBLEMS IN USDA'S ENFORCEMENT OF THE HUMANE METHODS OF 
                             SLAUGHTER ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2010

                               __________

                           Serial No. 111-136

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-127                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
DIANE E. WATSON, California          DAN BURTON, Indiana
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FORTENBERRY, Nebraska
PETER WELCH, Vermont                 AARON SCHOCK, Illinois
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2010....................................     1
Statement of:
    Painter, Stanley, chairman, National Joint Council of Food 
      Inspection Locals, American Federation of Government 
      Employees; Bev Eggleston, owner, Ecofriendly Foods LLC; and 
      Wayne Pacelle, president and CEO, Humane Society of the 
      United States..............................................    62
        Eggleston, Bev...........................................    72
        Pacelle, Wayne...........................................    78
        Painter, Stanley.........................................    62
    Shames, Lisa, Director, Natural Resources and the 
      Environment, Government Accountability Office; Jerold 
      Mande, Deputy Under Secretary for Food Safety, U.S. 
      Department of Agriculture; and Dean Wyatt, Food Safety and 
      Inspection Service Supervisory Public Health Veterinarian, 
      Williston, VT..............................................    10
        Mande, Jerold............................................    21
        Shames, Lisa.............................................    10
        Wyatt, Dean..............................................    38
Letters, statements, etc., submitted for the record by:
    Eggleston, Bev, owner, Ecofriendly Foods LLC, prepared 
      statement of...............................................    75
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio, prepared statement of.............................     3
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     6
    Mande, Jerold, Deputy Under Secretary for Food Safety, U.S. 
      Department of Agriculture, prepared statement of...........    24
    Pacelle, Wayne, president and CEO, Humane Society of the 
      United States, prepared statement of.......................    81
    Painter, Stanley, chairman, National Joint Council of Food 
      Inspection Locals, American Federation of Government 
      Employees, prepared statement of...........................    64
    Shames, Lisa, Director, Natural Resources and the 
      Environment, Government Accountability Office, prepared 
      statement of...............................................    12
    Wyatt, Dean, Food Safety and Inspection Service Supervisory 
      Public Health Veterinarian, Williston, VT, prepared 
      statement of...............................................    40


  CONTINUING PROBLEMS IN USDA'S ENFORCEMENT OF THE HUMANE METHODS OF 
                             SLAUGHTER ACT

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:47 p.m. in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, and Welch.
    Staff present: Jaron R. Bourke, staff director; Jean Gosa, 
clerk; Charisma Williams, staff assistant; Leneal Scott, IT 
specialist, full committee; Jennifer Safavian, minority chief 
counsel for oversight and investigations; Marvin Kaplan, 
minority counsel; and Alex Cooper, minority professional staff 
member.
    Mr. Kucinich. The committee will come to order.
    The Domestic Policy Subcommittee of the Oversight and 
Government Reform Committee now begins.
    I want to thank the witnesses and the members of the 
audience for their patience. The President had asked me to meet 
with him on an urgent matter, and we were there for about an 
hour. I was there for an hour, and then we had a series of 
votes. That is the reason why we are starting so late. But I am 
grateful for the presence of the witnesses, and I look forward 
to your testimony.
    Thanks to Mr. Cummings for being here.
    Today's hearing is the second Domestic Policy Subcommittee 
hearing on the topic of humane slaughter, the first of which 
was held on April 17, 2008.
    Today the subcommittee will examine the findings of a new 
Government Accountability Office--that is the GAO--report on 
the U.S. Department of Agriculture's enforcement of the Humane 
Methods of Slaughter Act. I requested this report, along with 
the support of Representative Issa, in 2008.
    Now, without objection, I will have 5 minutes to make 
opening statements. If the ranking minority member has the 
opportunity to come, he will be granted the same, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have five 
legislative days to submit a written statement or extraneous 
materials for the record.
    Mr. Jordan has an opening statement, which, without 
objection, will be included in the record.
    [The prepared statement of Hon. Jim Jordan follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.001
    
    Mr. Kucinich. Good afternoon.
    About 2 years ago an undercover video exposing extreme 
abuses of downed cattle at a slaughter plant in California 
shocked the Nation. The video depicted scenes of employees at 
the plant ramming cows with a forklift, poking at their eyes, 
and repeatedly applying electrical shocks to make downed cattle 
regain their footing and walk to the stun box. Those were 
apparent violations of the Humane Methods of Slaughter Act.
    While the USDA acted quickly, at the same time key 
Department officials disclaimed the extent of the problem 
depicted. For example, Doctor Kenneth Peterson, Assistant 
Administrator for the Office of Field Operations, Food Safety 
and Inspection Service, which is also known by its acronym 
FSIS, said, ``FSIS believes this to be an isolated incident.''
    Since that time, this subcommittee has examined the basis 
for USDA's espoused confidence. What we found was USDA's belief 
was not based on actual evidence. In fact, in November 2008 the 
Inspector General found that FSIS had been in the slaughter 
plant where those scenes of abuse were recorded and found no 
problems, just months before the undercover video was shot.
    The IG also found that, in a number of plants similar to 
the one in California, severe gaps in oversight and enforcement 
existed. For instance, FSIS inspectors ``allowed establishment 
employees to control the required accountability process'' at 5 
of 10 facilities audited. At one establishment, ``the inspector 
simply re-signed blank pen cards and provided these to 
establishment personnel for later use.''
    At 4 of 10 establishments, inspectors did not inspect the 
condition of individual animals; instead, ``animals moved past 
the inspector in rows or groups of three to four animals deep, 
effectively obscuring the observation of potential injuries and 
abnormalities of each animal.''
    At 2 of 10 establishments, ``suspect animals were not 
segregated or slaughtered separately from healthy animals as 
required.''
    Then again last October undercover investigators of the 
Humane Society caught employees at the Bushway Packing 
Slaughter Plant in Vermont on tape committing extreme abuse of 
veal calves. We are going to show some of that video. I have to 
advise you that it is graphic.
    [Videotape presentation.]
    Mr. Kucinich. Scenes like the ones we have just witnessed 
are violations of the Humane Methods of Slaughter Act. Shortly 
after this subcommittee's first hearing on this topic in 2008, 
I made a request, along with Representative Issa, that GAO 
conduct an investigation of USDA's oversight of the slaughter 
industry and update its previous report published in 2004. 
Today, GAO will publicly release its new findings.
    What GAO has found is significant. Serious management 
problems at FSIS persist and compromise both the enforcement of 
the Humane Methods of Slaughter Act and the ability of the 
Department to change course. Key mechanisms of management 
oversight of inspection staff are missing. Key guidance to 
inspection staff make clear to them what constitutes a 
violation. That is missing. Consistency in the application of 
the law and assessing violations is missing. Substantial 
differences exist among the reasons. Considerable disagreement 
exists among the enforcement staff about what kinds of abuses 
constitute violations and what enforcement actions need to be 
taken in response.
    The truth of the matter is we do not know how prevalent are 
the abuses documented by the Humane Society. Neither does the 
USDA because of the significant deficiencies in the management 
of FSIS identified by the Government Accountability Office. But 
there is new leadership at the troubled agency, and they are 
talking about a new commitment to enforce the law.
    My hope is that today's hearing will give us a clear 
picture of what the new administration plans to do to reform 
FSIS and improve the agency's track record in enforcing humane 
animal handling laws.
    I want to say that as I watched that video I am not going 
to let it influence the conduct of this hearing, but I have to 
tell you I just have serious questions about whether there is 
such a thing as humane slaughter, about whether or not humane 
slaughter is just an oxymoron. But be that at is may. We are 
going to proceed with this hearing.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5127.002

[GRAPHIC] [TIFF OMITTED] T5127.003

    Mr. Kucinich. Mr. Cummings, do you have an opening 
statement?
    Mr. Cummings. Yes, I do. Thank you very much, Mr. Chairman. 
I want to thank you very much for holding this vitally 
important hearing to examine USDA's compliance with the humane 
slaughter laws.
    You know, Mr. Chairman, just the idea that we have the 
subject matter that we do, whether a government agency, with 
employees paid with the money, hard-earned money of taxpayers, 
and then when I watch the USDA official watching that go on, it 
really does concern me, and it should concern all of us. You 
have to wonder whether we are paying people to be a part of the 
problem, as opposed to a part of the solution.
    The American people, as they should, expect that the meat 
they purchase at their local grocery stores and butcher shops 
is safe for consumption. Therefore, it came as a shock to the 
American people when they learned of horrific practices by the 
Hallmark-Westland Meat Packing Co. in California.
    On January 30, 2008, video footage of the plant released by 
the Humane Society of the United States revealed handling of 
downed cattle and raised serious concerns about tainted meat 
making its way into our food supply. Public outcry following 
the incident led to swift action by this committee and by the 
company, itself, including the voluntary recall of 143 million 
pounds of beef dating back 2 years by Hallmark-Westland.
    However, the problem did not stop with that incident. Most 
recently on October 30, 2009, the Humane Society released 
another video recorded at Bushway Packing, Inc., depicting 
calves just days old being shocked with electric prods.
    While the Federal Safety and Inspection Service has closed 
this veal slaughter plant in Vermont, the shocking findings at 
Bushway Packing raised the larger question about whether there 
are more meat packing companies in violation of the Humane 
Methods of Slaughter Act; therefore, at the request of this 
committee the GAO re-investigated FSIS' enforcement records, 
funding and staffing data, and strategic planning documents to 
better regulate the meat packing industry.
    GAO's original investigation in 2004 found that FSIS kept 
incomplete inspection records which caused inconsistent 
inspection and enforcement actions.
    Today, as we examine the new findings of the GAO report, we 
must uncover the reasons underlying the failures of this 
program. The time is long overdue for us to strengthen 
practices at the USDA and to oversee their processes to ensure 
that the American people can have absolute confidence, Mr. 
Chairman, in the safety of the food they purchase and they eat.
    Mr. Chairman, our response today must be just as aggressive 
as it was back in 2004. The safety of the American people 
depends on our steadfast efforts to investigate the standards 
of the meat packing industry and to enforce any improvements 
that we find must be made.
    I look forward to the testimony today and thank you again, 
Mr. Chairman.
    Mr. Kucinich. I always appreciate your participation and we 
are grateful for your presence here today.
    We are now going to go to testimony from the witnesses. 
There are no more additional opening statements.
    I want to introduce our first panel. Ms. Lisa Shames is the 
Director of Natural Resources and the Environment at the 
Government Accountability Office, where she oversees 
evaluations at the U.S. Department of Agriculture and the Food 
and Drug Administration. She has been in public service since 
1978. She directs work assessing oversight of food imports, 
animal welfare, farm program payments, agricultural 
conservation, and other policy areas. Ms. Shames managed the 
designation of the Federal oversight of food safety on the 
Government Accountability Office's high-risk list.
    Mr. Jerold Mande is Deputy Under Secretary for Food Safety 
at the U.S. Department of Agriculture. In that position, Mr. 
Mande is responsible for the Food Safety and Inspection 
Service, the USDA agency which protects public health through 
food safety and defense. Prior to being appointed Deputy Under 
Secretary, he was associate director for public policy at the 
Yale Cancer Center at Yale University School of Medicine and 
was also a lecturer in public health, helping train select 
groups of physicians for careers in public policy.
    Dr. Dean Wyatt serves as Food Safety and Inspection 
Service's Supervisory Public Health Veterinarian for a six-
plant slaughterhouse and food processing operation in Vermont, 
where he is responsible for supervising humane handling 
procedures and enforcing FDA regulations under the ``in-plant 
performance system.'' The doctor has previously served as a 
supervisory public health veterinarian for FSIS in other parts 
of the country and has been in private practice as a 
veterinarian.
    I want to thank each of the witnesses for appearing before 
this subcommittee today.
    It is the policy of our Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that each of the 
witnesses has answered in the affirmative.
    I ask that each witness give a brief summary of your 
testimony. Keep the summary, if you would, under 5 minutes in 
duration. Your complete written statement will be in the 
record. I'm sure during the Q & A period we will have plenty of 
opportunities to learn more.
    Ms. Shames, you are the first witness on the panel. I ask 
that you proceed. Thank you.

STATEMENTS OF LISA SHAMES, DIRECTOR, NATURAL RESOURCES AND THE 
 ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; JEROLD MANDE, 
  DEPUTY UNDER SECRETARY FOR FOOD SAFETY, U.S. DEPARTMENT OF 
AGRICULTURE; AND DEAN WYATT, FOOD SAFETY AND INSPECTION SERVICE 
     SUPERVISORY PUBLIC HEALTH VETERINARIAN, WILLISTON, VT

                    STATEMENT OF LISA SHAMES

    Ms. Shames. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today as part of your 
ongoing oversight of humane handling issues. This afternoon I 
will summarize the report we conducted at your request on 
USDA's implementation of the Humane Methods of Slaughter Act 
[HMSA].
    As detailed in our report being released today, we made the 
following key findings: first, USDA's enforcement of humane 
handling has been inconsistent; second, USDA faces difficulties 
in planning for the resources necessary to enforce humane 
handling, and; third, USDA does not have a comprehensive 
strategy for its overall enforcement.
    Let me first discuss USDA's inconsistent enforcement.
    Inspectors are to exercise their professional discretion 
when deciding what enforcement action to take in response to a 
violation; however, our survey and analysis of records suggest 
that inspectors are not consistently applying this discretion. 
This is because inspectors have unclear guidance and inadequate 
training.
    Let me give you some examples of the inconsistent 
enforcement. When witnessing a specific humane handling 
violation, including excessive prodding or not rendering the 
animal insensible to pain in a single blow, inspectors told us 
they would take different enforcement actions, such as 
submitting a noncompliance report or suspending plant 
operations.
    Our survey suggests inconsistent enforcement across plants. 
For example, inspectors at large plants had more stringent 
views than those at very small plants.
    Also, records show inconsistent enforcement across 
districts. For example, we found that 10 out of the 15 
districts took all of the suspension actions. The other five 
districts took none. Yet, these five districts oversee over 
half of the livestock slaughtered nationwide.
    Unclear guidance and inadequate training contribute to 
USDA's inconsistent oversight. Inspectors from over half of the 
plants surveyed reported that additional guidance and training 
are needed. In particular, when asked about seven areas of 
enforcement, such as animal sensibility, inspectors' responses 
ranged from over 40 to nearly 60 percent that they need more 
guidance and training. Others have called for more training, 
including USDA's Inspector General, major industry 
associations, and the Humane Society.
    Positively, to help its humane handling performance, USDA 
has begun to consider using a numerical scoring system 
developed by Dr. Temple Grandin. This system seeks to reduce 
the subjective nature of inspections and identify areas in need 
of improvement. USDA's own Agricultural Marketing Service uses 
this system to rate the performance of a slaughter plant. This 
helps determine whether the plant can provide meat to the 
National School Lunch Program.
    USDA officials also told us that they are exploring the 
potential use of video surveillance. Over half of the 
inspectors at large plants told us that video would be useful.
    Our second key finding is that USDA faces difficulties in 
planning for the resources to enforce humane handling. For 
example, in terms of staffing, USDA told us it plans to hire 24 
inspectors to help its humane handling enforcement. While a 
positive step, we found that this hiring is being done without 
the benefit of an updated work force plan. The current 2007 
plan does not address specific work force needs to address 
HMSA.
    GAO reiterates a recommendation we made in 2004, that USDA 
periodically reassess whether its estimates accurately reflect 
the resources needed to enforce humane handling.
    Our third key finding is that, while USDA has various 
planning documents for humane handling activities, they do not 
clearly outline goals, resources, timeframes, or metrics, nor 
do these plans provide a comprehensive strategy to guide humane 
handling enforcement. Without these key planning elements, USDA 
is not well positioned to demonstrate any progress in improving 
its enforcement of HMSA to the public or to the Congress.
    GAO recommends that USDA establish criteria for when 
inspectors should suspend plant operations; identify some type 
of objective tool, such as the numerical scoring system I just 
described, to help evaluate plants' humane handling 
performance; analyze the narrative from non-compliance reports; 
and develop a comprehensive strategy to enforce HMSA.
    In its formal response to our report, USDA did not indicate 
whether it agreed or disagreed with our findings or 
recommendations. USDA did state that it plans to use them in 
improving its enforcement efforts.
    Mr. Chairman, this concludes my remarks. I would be happy 
to respond to any questions that you or other members of the 
subcommittee may have.
    [The prepared statement of Ms. Shames follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.004
    
    [GRAPHIC] [TIFF OMITTED] T5127.005
    
    [GRAPHIC] [TIFF OMITTED] T5127.006
    
    [GRAPHIC] [TIFF OMITTED] T5127.007
    
    [GRAPHIC] [TIFF OMITTED] T5127.008
    
    [GRAPHIC] [TIFF OMITTED] T5127.009
    
    [GRAPHIC] [TIFF OMITTED] T5127.010
    
    [GRAPHIC] [TIFF OMITTED] T5127.011
    
    [GRAPHIC] [TIFF OMITTED] T5127.012
    
    Mr. Kucinich. Thank you very much for your testimony.
    Mr. Mande, you may proceed.

                   STATEMENT OF JEROLD MANDE

    Mr. Mande. Chairman Kucinich, Mr. Cummings, thank you for 
inviting me to appear before you today.
    The Food Safety and Inspection Service, FSIS, is deeply 
committed to ensuring humane handling of livestock at 
federally-inspected slaughter establishments. We welcome 
today's hearing and the GAO report as steps that will help us 
improve on this mission.
    FSIS is the public health regulatory agency within the U.S. 
Department of Agriculture. We enforce the Nation's food safety 
laws and we enforce the Humane Methods of Slaughter Act.
    Slaughter is a critical stage in the life cycle of farm 
animals and demands the highest level of care and compassion. 
To achieve those levels, FSIS has a rigorous program to train 
our inspection personnel in verifying humane handling at 
slaughter establishments. All entry level inspectors receive 
both classroom instruction and 1 to 2 weeks of field training 
on humane handling.
    In February 2009, in response to concerns raised by this 
subcommittee and as part of our commitment to improve our 
enforcement of humane slaughter, all FSIS personnel assigned to 
antemortem inspection at livestock slaughter establishments 
were required to complete refresher training on the agency's 
humane handling policies. This training included determining 
insensibility to pain, documenting noncompliance, and 
suspending inspection for egregious situations.
    FSIS is planning further humane handling training this 
year.
    In addition, each of FSIS' 15 district offices has a 
district veterinary medical specialist who serves as the 
district expert on humane handling issues and helps ensure 
humane slaughter practices.
    Whenever a violation of the humane slaughter requirements 
is observed, USDA acts immediately to address it. Our 
inspectors are told that they must take immediate action so an 
animal does not continue to be harmed and that their first duty 
is to ensure the harm does not continue. Inspectors can place a 
U.S. retain rejected tag at the appropriate place to stop 
slaughter until the violation is addressed by the establishment 
and the inspector removes the tag. This is also known as a 
regulatory control action.
    The next step is for the inspector to determine whether the 
violation is egregious. Egregious violations are any act or 
condition that is cruel to an animal and warrants an immediate 
suspension of inspection. A suspension effectively shuts down 
all or part of a plant's operation. Examples of egregious 
violations include excessive prodding or beating of animals, 
dragging conscious animals, and causing unnecessary pain and 
suffering to animals.
    Humane handling violations are one of the few violations 
where inspectors are able to suspend without prior 
notification, a sign of how serious we believe these violations 
are.
    FSIS also has management controls and accountability 
mechanisms for ensuring that its personnel are properly 
enforcing the Humane Methods of Slaughter Act. For example, 
supervisory personnel at slaughter establishments conduct 
performance reviews at least twice annually in inspectors' 
performance, and these reviews address humane handling 
inspection.
    As requested by you, Mr. Chairman, I would like to discuss 
the industry's compliance with the Humane Methods of Slaughter 
Act.
    Only 800, or less than 20 percent, of our federally 
inspected establishments slaughter livestock and thus are 
subject to the act. In calendar year 2009, FSIS in-plant 
personnel spent the equivalent of 140 staff years, or 291,000 
person hours, verifying humane handling activities, and 
conducted more than 128,000 humane handling verification 
procedures at livestock slaughter establishments. We found 
humane handling violations in less than half of 1 percent of 
these procedures.
    In 2008, FSIS issued a total of 178 suspensions to 
federally inspected establishments. Ninety-seven suspensions, 
or more than half, were for humane handling violations.
    Last year, 2009, FSIS issued a total of 164 suspensions to 
federally inspected facilities. Eighty-seven suspensions, or, 
again, more than half, were for humane handling violations.
    As GAO finds in its report, both of these figures show a 
significant increase in humane handling enforcement since the 
events of Hallmark-Westland.
    FSIS continually reviews industry compliance with Humane 
Methods of Slaughter Act and takes appropriate measures to 
prevent humane handling violations at establishments we 
regulate. For example, with the help of Congress, we are in the 
process of filling a newly created position at headquarters for 
a humane handling enforcement coordinator. This person will 
have line responsibility for overseeing our humane handling 
program.
    Also, we recently added 23 additional inspectors to boost 
humane handling oversight and verification inspection 
activities. These additional inspectors were placed at 
establishments determined to be at higher risk of violating 
humane handling regulations, such as cull and dairy cattle and 
veal plants.
    In addition, in December we added a new scoring 
verification tool for our district veterinarians based on the 
work of humane handling expert, Dr. Temple Grandin, that will 
help us identify problems with establishments' humane handling 
and slaughter systems.
    In the near future FSIS intends to issue compliance 
guidelines to industry for use of video or other electronic 
monitoring recording equipment. All of these and other measures 
are discussed at length in my written testimony.
    However, despite our best efforts, there are areas where 
FSIS must and will do more. With that in mind, I would like to 
discuss GAO's review of the Humane Methods of Slaughter Act 
enforcement by FSIS. While we were not given a final copy of 
the report to review before this hearing, we were able to 
review a draft. On behalf of the agency, I would like to thank 
GAO for its efforts to work with us during its investigation 
and for giving us the opportunity to provide comments on the 
draft report.
    FSIS is committed to constantly improving upon its efforts 
to ensure that establishments comply with humane handling laws 
and regulations. Thus, the agency will consider carefully GAO's 
findings and recommendations as we strive to improve and 
evolve.
    FSIS recognizes the need to improve our inspectors' ability 
to identify trends in humane handling violations and will work 
to identify practices that will achieve more consistent 
enforcement of the Humane Methods of Slaughter Act. That being 
said, FSIS does disagree with some items in the draft GAO 
report, and these items could result in a misleading portrayal 
of FSIS' enforcement of Humane Methods of Slaughter Act and are 
described in my written testimony and in comments that we have 
provided GAO.
    Before I close, I would like to briefly comment on the 
abuse that we saw here today in the videotape of veal calves at 
Bushway Packing that were captured by the Humane Society last 
October.
    Secretary Vilsack expressed well the views of all of us at 
FSIS when he said, ``The deplorable scenes recorded in the 
video are unequivocally unacceptable,'' as he called on USDA's 
Inspector General to conduct a criminal investigation of the 
Bushway animal abuse, which remains underway. FSIS immediately 
suspended operations at Bushway. FSIS also initiated 
investigation into the alleged misconduct by agency personnel 
and has to date terminated one employee.
    If I can make one final point, Mr. Chairman, whistleblowers 
play an honored role in our democracy. It takes great courage 
to speak out about potential mismanagement or waste by 
something as big and as powerful as the U.S. Government. We 
take these charges very seriously, even if the actions occurred 
under a previous administration. I promise we will investigate 
any charges, we will identify steps we can take to improve 
humane handling of livestock, and we will implement those 
steps.
    Thank you, Mr. Chairman, for this opportunity to appear 
before you today. I look forward to your questions.
    [The prepared statement of Mr. Mande follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.013
    
    [GRAPHIC] [TIFF OMITTED] T5127.014
    
    [GRAPHIC] [TIFF OMITTED] T5127.015
    
    [GRAPHIC] [TIFF OMITTED] T5127.016
    
    [GRAPHIC] [TIFF OMITTED] T5127.017
    
    [GRAPHIC] [TIFF OMITTED] T5127.018
    
    [GRAPHIC] [TIFF OMITTED] T5127.019
    
    [GRAPHIC] [TIFF OMITTED] T5127.020
    
    [GRAPHIC] [TIFF OMITTED] T5127.021
    
    [GRAPHIC] [TIFF OMITTED] T5127.022
    
    [GRAPHIC] [TIFF OMITTED] T5127.023
    
    [GRAPHIC] [TIFF OMITTED] T5127.024
    
    [GRAPHIC] [TIFF OMITTED] T5127.025
    
    [GRAPHIC] [TIFF OMITTED] T5127.026
    
    Mr. Kucinich. Thank you, Mr. Mande.
    Dr. Wyatt, you may proceed.

                    STATEMENT OF DEAN WYATT

    Dr. Wyatt. Good afternoon, Mr. Chairman, Mr. Ranking 
Member, distinguished members of the committee. Thank you for 
having me here today.
    I am speaking on behalf of myself, and I am not speaking on 
behalf of the agency.
    People ask me, Dean, why in the world would you risk 
ruining your career by going to Washington and testifying 
before Congress. I would tell them a favorite quote of mine 
Abraham Lincoln once said: to sin by silence when one must 
protest makes cowards of men. When we turn our back on the 
helpless, when we fail to speak on behalf of the voiceless, 
when we tolerate animal abuse and animal suffering, then the 
moral compass of a just and compassionate society is gone.
    I do feel like Don Quixote here a little bit because I have 
been in the battle. I have been in the trenches. I have the 
dents in my armor. But the dents in my armor have not come from 
plant management; the dents in my armor have come from FSIS 
management. They should have been my shield. They should have 
been my protector.
    I am a law enforcement officer. I am a public servant. I 
have dedicated my life to the enforcement of the Humane 
Slaughter Act and in food safety. And I like to think that I am 
not here only speaking on behalf of myself, but I also like to 
think that I am also speaking on behalf of hundreds of very 
committed, dedicated, courageous food inspectors and 
veterinarians who are frustrated, demoralized because they 
don't receive the support that they need from their 
supervisors.
    If I had more time I would tell you about how I observed a 
pig slipping and falling--several pigs, actually--slipping and 
falling because they were being driven too fast, too hard on a 
slippery surface. District office called me. They chewed me 
out. They said they would not support my NR. I was going to be 
demoted to a non-supervisory position for 2 weeks.
    I would tell you about an angry animal handler who was 
bludgeoning a pig over the head and nose several times with a 
paddle simply because it was down and could not get up. It 
couldn't get up. It couldn't get out the door. Myself and the 
other veterinarian on duty were given a letter of reprimand for 
trying to enforce the law.
    I would tell you how the district office called me, told me 
to drastically reduce the amount of time I spent on humane 
handling enforcement because I was finding too many problems.
    I called my supervisor 1 day because I had a humane 
handling issue and I wanted to talk to him about it, and he 
said that I needed to document that on an NR, which I did, 
draft NR. As the draft NR reached the district office, then 
they had a fit. They berated me on the phone for half an hour. 
The whole management staff of the district office, they said 
there was no way I could have seen what I actually did see. In 
the end, they told me I either had to transfer, I would be 
terminated. I was told to immediately leave the plant, to never 
come back. I was supposed to report for duty the next day at a 
graveyard shift at a poultry plant in Arkansas.
    I cover calf slaughter operations. I covered Bushway's. On 
three separate occasions I suspended inspection operations for 
egregious humane handling events only to have that plant 
reopen, operations continue.
    You have to realize, these are baby calves. They are 
typically 1 to 7 days old, and they are trucked for long 
distances away, and they come injured. They are weak. They are 
dehydrated. They haven't been fed in who knows how long. They 
have been at a sale barn. They have been trucked maybe a day. 
Who knows how long? And so they are weak and they are down and 
they are injured and they can't get up.
    I have seen an angry animal handler swear at these cows, 
pick up a downed calf. He would throw it like a football off 
the second tier of a trailer. I have seen them drag them by the 
hind leg down an unloading ramp. I have seen them drag them 
across holding pens.
    Not only are they trucked long distances, but sometimes 
they are held overnight, and it always broke my heart. I would 
have to come to work the next day. Plant employees would be 
carrying in the dead bodies of these baby calves because they 
died of dehydration and starvation.
    I had a district office official come to my plant and he 
told the plant manager they had to reduce the size of the 
stunning area because they were chasing the calves around with 
the stunner and it is easy to mis-stun these calves. The plant 
manager, the owner of Bushways, got very angry. He yelled at 
the district veterinary medical specialist. He was doing the 
review. He said no, I'm not going to do it. You can't make me 
do it. I won't do it. DVMS told inspection personnel to 
disregard that regulation. Nothing was done.
    We do need an ombudsman's office where we can go that 
people will actually listen and care. We need whistleblower 
enhancement laws. We need more field inspectors. But most of 
all, we need the support of upper level management so we can 
fulfill our mission.
    Thank you very much.
    [The prepared statement of Dr. Wyatt follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.027
    
    [GRAPHIC] [TIFF OMITTED] T5127.028
    
    [GRAPHIC] [TIFF OMITTED] T5127.029
    
    [GRAPHIC] [TIFF OMITTED] T5127.030
    
    [GRAPHIC] [TIFF OMITTED] T5127.031
    
    [GRAPHIC] [TIFF OMITTED] T5127.032
    
    [GRAPHIC] [TIFF OMITTED] T5127.033
    
    [GRAPHIC] [TIFF OMITTED] T5127.034
    
    [GRAPHIC] [TIFF OMITTED] T5127.035
    
    [GRAPHIC] [TIFF OMITTED] T5127.036
    
    [GRAPHIC] [TIFF OMITTED] T5127.037
    
    Mr. Kucinich. Mr. Mande, is there a connection, in your 
professional opinion, between humane handling and the safety of 
the food which the people consume?
    Mr. Mande. I think the humane handling statute, one of the 
four that we carry out, along with our other food safety 
statutes, plays an important part in helping us not only ensure 
the humane treatment of animals, but ensuring food safety for 
the following reason: all----
    Mr. Kucinich. I'm not asking for a bureaucratic answer. 
Would you eat meat where the calves were treated like that? 
Would you consume those products?
    Mr. Mande. I don't think calves should ever be treated like 
that. It is against the law.
    Mr. Kucinich. But would you consume meat that was treated 
that way? Is the public health put in jeopardy if FSIS does not 
adequately enforce the Humane Slaughter Act?
    Mr. Mande. I think when companies violate the Humane 
Slaughter Act it is a demonstration that they don't have 
control of their processes, and if they don't have control of 
the humane handling processes it raises into question how they 
can have control of their food safety processes.
    Mr. Kucinich. Would you say, Dr. Wyatt, that there are food 
safety elements that are directly related to inhumane handling?
    Dr. Wyatt. Yes, for sure.
    Mr. Kucinich. Tell me.
    Dr. Wyatt. I would agree with Mr. Mande. If they are not 
following the humane handling practices, they are probably not 
following their food safety program. We had some serious issues 
in food safety at Bushway, let alone the humane handling thing. 
We had some very serious food safety issues there.
    Mr. Kucinich. I just think that people who are watching 
this should have some understanding that it does matter how the 
animals are handled; that if they are not handled correctly 
there are health issues that become attendant; is that true?
    Dr. Wyatt. Very true, Mr. Chairman. Yes.
    Mr. Kucinich. Now, in the video clip we saw, Dr. Wyatt, 
there is a scene where an FSIS inspector is speaking to Bushway 
employees who are skinning a calf while it is still alive, and 
he says, ``If Doc knew about this, he would shut you down.'' 
Dr. Wyatt, isn't it true that you are the doc they are talking 
about?
    Dr. Wyatt. Yes, Mr. Chairman. Yes.
    Mr. Kucinich. And ultimately you did find out about such 
abuses and your actions led to the suspension of operations at 
Bushway; is that correct?
    Dr. Wyatt. Yes.
    Mr. Kucinich. And it wasn't until the Humane Society sent 
an undercover investigator in to film the horrible abuses you 
had tried to stop that upper management at USDA ordered a 
criminal investigation and shut down the plant; is that 
correct?
    Dr. Wyatt. That is correct.
    Mr. Kucinich. Now, Mr. Mande, in 2008 the Assistant 
Administrator for the Office of Field Operations at FSIS wrote 
to me to respond to the questions I had posed concerning FSIS' 
treatment of Dr. Wyatt at his previous posting in Oklahoma. At 
that time, Dr. Wyatt had chosen to become a whistleblower after 
his concern about slaughterhouse practices there, practices 
that were upheld by the previous administration. In that 
response, FSIS made a number of disparaging comments about Dr. 
Wyatt and disparaged his competency. It is very clear that the 
unfounded comments were intended for no other reason than to 
discredit him because he made the courageous decision to be a 
whistleblower.
    When I look at that slander, I look at the smear tactics, I 
look at the bullying, it is very offensive.
    As chairman of this investigative subcommittee, I am 
committed to correcting the abuse of power by a high-ranking 
official. I want everyone inside FSIS to understand that this 
is not acceptable.
    Mr. Mande, Dr. Wyatt should be recognized as a principled 
man, an exemplar of the highest standards that FSIS should be 
cultivating in all of its staff and supervisors.
    Now, I understand that you didn't oversee the agency when 
this abuse of power took place, but you do now. There is no 
better way for you to signal to all of the inspection staff, 
supervisors, and district management and to prove to Dr. Wyatt, 
himself, that you are committed to leading FSIS in a new 
direction, no better way to do that than if you would now take 
this opportunity to publicly commit to embrace individuals like 
Dr. Wyatt who, at great risk, report abuses by the industry and 
even government. Will you do that? What will you do? What do 
you think about what happened to Dr. Wyatt, how he was smeared?
    Mr. Mande. Mr. Chairman, I would be delighted to commit to 
making sure that when someone comes forward that witnesses 
violations of the law, and at great personal risk to 
themselves, sees abuses of power, and brings that forward at 
their risk to us, that we get to the bottom of those. We would 
not tolerate that type of behavior, and make sure that we do 
everything in our camp, particularly in this case, as we saw 
today, the need to make sure that we properly enforce the 
Humane Methods of Slaughter Act is just paramount. And when 
people come forward to help us do that, they should be 
embraced, and that is what I commit to do in this 
administration.
    Mr. Kucinich. Was he smeared, Dr. Wyatt smeared, or was 
that OK? I want to know. I want to know how you view this, as 
someone who manages the program, because you are setting the 
tone for other inspectors. Come on, now. Be direct. Was he 
smeared?
    Mr. Mande. Mr. Chairman, I met Mr. Wyatt first before this 
hearing for the first time.
    Mr. Kucinich. Are you familiar with the record of what was 
said about him by an FSIS official?
    Mr. Mande. Dr. Wyatt came in and met with some other high-
level people in the agency and brought these things to our 
attention in terms of what he presented in his testimony, some 
of the actions that he had witnessed and how he had done that, 
and because of that, because of his status as a whistleblower 
on those things, we have begun an investigation. We are going 
to look into his charges and make sure that, if there is 
information that we can use to improve how we do humane 
slaughter, we are going to do that.
    Mr. Kucinich. Why won't you address how he was disparaged? 
Why won't you do that?
    Mr. Mande. Again, I don't know. I met him today, and I 
found his----
    Mr. Kucinich. No, this is professional. This isn't whether 
he's a nice guy or what. This is about his professional work.
    Now, I'm not going to let you off here. Why won't you 
address that? That concerns me. You are sending mixed signals 
here, Mr. Mande.
    Mr. Mande. In this administration, under this Secretary, 
under this role that I have the opportunity to play here, we 
would not tolerate inspectors who bring forward humane handling 
complaints being in any way discouraged from that or mistreated 
for that or retaliated against for that because of bringing 
those charges. I find that unacceptable and we would not allow 
that.
    Mr. Kucinich. Mr. Cummings, you can proceed. I will come 
back to you.
    Mr. Cummings. How long have you been in the job, Mr. Mande?
    Mr. Mande. Since July.
    Mr. Cummings. Since July. And were you familiar with Dr. 
Wyatt's case at all before today?
    Mr. Mande. [No response.]
    Mr. Cummings. The chairman just asked you a series of 
questions, and I was just wondering were you familiar with the 
subject matter that he just talked about before today.
    Mr. Mande. Yes.
    Mr. Cummings. And how did you come to learn about that?
    Mr. Mande. After I saw the Humane Society videotape, I 
first became aware of it, and I also became more aware of it 
when Dr. Wyatt came and met with some other officials at the 
Department and brought some of his concerns to us, and became 
aware of his concerns and made sure that they are going to be 
looked into thoroughly and that we get to the bottom of it and 
take the correct steps.
    Mr. Cummings. And when was that, that he came to you all?
    Mr. Mande. It was last fall. I wasn't in that meeting so I 
don't know the exact date, but I would guess----
    Mr. Cummings. Last fall? And tell me what you have done so 
far in response to what you learned.
    Mr. Mande. Mr. Cummings, there are two events that need to 
move forward together here. The first thing we learned was that 
Bushway was behaving in a way that we just found completely 
unacceptable. Secretary Vilsack asked our Inspector General to 
begin a criminal investigation of them, and that criminal 
investigation is ongoing and Dr. Wyatt is part of it.
    So initially there was a period of time----
    Mr. Cummings. That was referred to the Justice Department?
    Mr. Mande. It is through our Inspector General.
    Mr. Cummings. The Inspector General. All right.
    Mr. Mande. OK?
    Mr. Cummings. All right.
    Mr. Mande. At the same time then, of course, Dr. Wyatt came 
to us with charges about how he had been treated that we also 
felt needed to be investigated right away. But as part of the 
criminal investigation we weren't able to begin our separate 
investigation until we reached a point in the criminal 
investigation where the IG's office enabled us to begin work on 
the charges that he raised. So that only happened in the last 
month, and so we have begun that investigation as well and we 
want to complete it as soon as possible.
    And, as I was talking to Dr. Wyatt before that, I think his 
experience, the examples he has brought forward, are extremely 
important to us in trying to design the humane handling program 
that we need.
    Mr. Cummings. Yes. I take it that this administration, I 
hope, you just said a few minutes ago has a policy of dealing 
with things a little different than before?
    Mr. Mande. Yes, sir.
    Mr. Cummings. And can you tell us what the difference is, 
generally?
    Mr. Mande. I'm not the last administration, but I am seeing 
the types of things that we wouldn't stand for.
    Mr. Cummings. Yes.
    Mr. Mande. First of all, in humane handling, we need to do 
a better job.
    Mr. Cummings. Yes.
    Mr. Mande. I think the reports that GAO has provided us 
will help us do that.
    Mr. Cummings. Speaking of that, you know, in the GAO report 
it finds that the inspectors in charge want more training on 
whether incidents require enforcement action. And I am just 
wondering, is the Department responsible for the training of 
individuals in the various districts?
    Mr. Mande. Yes. We train everyone who comes in.
    Mr. Cummings. You gave some testimony that you sound like 
you felt rather proud of the training that is taking place now. 
Are you?
    Mr. Mande. I went through it, myself, and I found it 
enormously helpful, and I found it enabled me to understand 
exactly the types of things that we should be making sure don't 
happen. I was talking to Dr. Wyatt before. I would enormously 
appreciate his experience in terms of being in the field and 
having witnessed the training and how it ends up in terms of 
the individual inspectors and the work they do, and if there 
are ways we can improve that training I am open to that, as 
well.
    Mr. Cummings. Dr. Wyatt, did you have a comment? You look 
like you want to say something.
    Dr. Wyatt. No. I would just prefer to wait. I'm fine now.
    Mr. Cummings. What training do FSIS inspectors receive to 
ensure that they are prepared to enforce the Humane Methods of 
Slaughter Act? What is the training?
    Mr. Mande. Every inspector comes in and gets, as part of 
their initial training, classroom training in the Humane 
Methods of Slaughter Act, which goes over, for example, just 
every--there are categories from unloading an animal off the 
truck, as they are being moved toward slaughter, the stunning 
that must take place to make them insensible before slaughter. 
So it falls into sort of three broad areas in terms of the 
environment that the animal is in, how the animal is treated in 
that environment, and the stunning procedure, which is so 
critical because to carry out the law the animal must be 
insensible, not able to feel pain at the time of slaughter. So 
they receive classroom training in all three of those areas. 
They receive classroom training on the enforcement actions they 
are to take, that whenever they witness a violation of the act 
they need to write a noncompliance record, and whenever they 
see an egregious violation, the cruel treatment of animals, for 
example dragging an animal, what we witnessed in that 
videotape, that they must in that situation suspend. They 
receive that.
    Then they go, after they finish their classroom training, 
they have a week to 2-week in-field training, as well, to take 
those lessons learned in the classroom and learn how to apply 
them in the field.
    And then we do refresher and updating training, as I 
described we did last year and we will do again this year.
    Mr. Cummings. One last question. You know, one of the 
things that is sort of shocking to the conscience, Mr. Mande, 
is what I said in my opening statement. When you have an 
inspector standing there observing certain things that he is 
supposed to be stopping, and he is almost a cheering squad for 
wrongdoing. I mean, that, to me, then that would make me wonder 
how deep does this go. Is there money being paid? In other 
words, to allow those kinds of things to happen?
    I know we have an investigation going on with a lot of 
things, probably, but we want inspectors to be inspectors. We 
want people to do their jobs, and if they don't want to do 
their jobs then they shouldn't be there, because the problem is 
when they fail to do their jobs they fail the American people. 
I refuse to pay people to kill me. That makes no sense. Or not 
to do their job. Is that getting through to Secretary Vilsack 
and all the others?
    Mr. Mande. I share your outrage myself. And, as I said in 
my testimony, I think Secretary Vilsack said it for all of us 
at USDA and FSIS when he said that the deplorable scenes 
recorded in the video are unequivocally unacceptable. And as I 
mentioned in my testimony, as well, that is part of not only 
the criminal investigation we have done, that we have 
terminated one employee.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Kucinich. Mr. Welch?
    Mr. Welch. Thank you very much, Mr. Chairman.
    Dr. Wyatt, thanks for your good work on this. I'm sorry 
that I got here late, but what are the specific steps going 
forward you think should be taken in order to try to avert this 
happening again?
    Dr. Wyatt. There are several things. I mentioned several of 
them, I think, in my written testimony. I think it is extremely 
critical that we get an ombudsman's office in place, not only 
for humane handling but food safety, some place where the 
inspectors can go that--if they have a weak supervisor that 
always grants appeals, you can't go above your supervisor. You 
are stuck. So we need that office where they have the freedom 
to go and somebody will listen to them, care about what they 
are telling them, and actually go to somebody in authority that 
will also take care of that problem. That is critical.
    We need whistleblower law enforcement and enhancement. I 
think it is important. The inspectors, it depends. A lot of 
small, medium, and large plants have a staffing shortage, and 
the fact that the inspectors have a lot of work to do. They 
have a lot of work to do. Most of their time is spent on 
carcass inspection duties, so they don't have time to do the 
humane slaughter enforcement. And when they do have the time, 
as I explained in my testimony, they shut off the line, they go 
do their humane slaughter. Well, plant managers know where they 
are at. They are not going to do anything. So that is a 
problem.
    I think we need for these chronic plants, rather than keep 
them in suspension and abeyance time after time after time, 
take the courage to suspend. Take away their grant of 
inspection. They shouldn't be operating. It takes courage to do 
that, and we do need that.
    We need fines in place. I think I mentioned that subpoena 
specifically actions sometimes can cause more inhumane handling 
of animals.
    Mr. Welch. I noted your concern about suspension sometimes 
resulting in more harm to the animals than if you allowed it to 
continue under close supervision.
    Mr. Mande, do you agree with that?
    Mr. Mande. Well, the point that sometimes, in order to be 
humane to the animals, it may make sense to allow a plant to 
continue in operation, of course under close supervision, 
rather than impose a suspension where the animals are then put 
in further jeopardy in very inhumane conditions.
    Mr. Welch. I do think that when it reaches a point where 
there is an egregious action and there is a suspension, that 
suspension is necessary until we can get the commitment from 
the company to correct that. But I also agree with you, sir, 
that there are situations. The animals are there, and the 
length of that suspension could be resulting in further harm to 
the animal while that suspension is ongoing.
    Mr. Welch. Dr. Wyatt, I understand the Vermont Department 
of Agriculture was vigilant on this and cooperative?
    Dr. Wyatt. Yes. They were involved in the whole closure of 
the plant, suspension of the plant.
    Mr. Welch. Yes. Mr. Alby was good to work with on this.
    Dr. Wyatt. Yes. Well, I didn't have any personal contact 
with him, so yes, as far as I know from what I have been told, 
yes.
    Mr. Welch. OK. Thank you.
    Mr. Chairman, I yield back. Thank you.
    Mr. Kucinich. Ms. Shames, the Inspectors Union and consumer 
groups have criticized FSIS for not filling vacancies in plants 
and moving offline inspectors to fill gaps on the slaughter 
processing lines. That shift has come at the expense of humane 
slaughter and handling inspections. Are those criticisms 
substantiated?
    Ms. Shames. We found that FSIS is working without a current 
work force plan to----
    Mr. Kucinich. What does that mean?
    Ms. Shames. It means that it really at this point has not 
identified the work force level and skills that it needs to 
ensure that it is performing the humane handling activities 
that it should.
    Mr. Kucinich. OK. Explain the implications of that for the 
consuming public.
    Ms. Shames. What this means and what we found in an earlier 
report is that there are districts that are short-staffed, and 
to FSIS----
    Mr. Kucinich. What does that mean? What happens, though?
    Ms. Shames. It means that food safety activities, humane 
handling activities may not be getting the due attention that 
they ought to. In fact, in our survey, when we asked what the 
challenges were for following humane handling, an overwhelming 
majority of the inspectors at the large plants said that they 
are hard-pressed to backfill. When there are vacancies, when 
people are taking their leave, it means that humane handling 
oversight is shortchanged.
    Mr. Kucinich. OK. So you found inconsistent enforcement 
across the districts. You found that five districts overseeing 
56 percent of all livestock slaughtered nationwide did not 
suspend any plants during the study period. What does that 
suggest about the adequacy of enforcement?
    Ms. Shames. Well, it shows that there are inconsistencies. 
For example, those five that did not conduct any suspensions 
were in Des Moines and Chicago, and those happen to be the 
first- and second-highest volume slaughter districts that FSIS 
has.
    Mr. Kucinich. So you saw the tape. You saw the violations 
at Bushway. Was that just an isolated incident and it could 
never happen anywhere else?
    Ms. Shames. What we know from our survey is that there are 
inconsistencies across the board. We see it within plants in 
terms of the various responses that we got, in terms of the 
enforcement actions that would be taken. We saw that across 
districts. We saw that over time.
    Mr. Kucinich. When there are inconsistencies, what happens?
    Ms. Shames. Well, the inconsistency is deciding what action 
ought to be taken when an inspector witnesses a humane 
violation.
    Mr. Kucinich. I mean, but at some point isn't this a health 
issue?
    Ms. Shames. Yes. The downer animals roll around in feces, 
and that can encourage or bring about E. coli. We know from the 
Westland-Hallmark incident that there was a recall of the beef. 
Over time, while there have been fewer recalls of beef, the 
quantities of the meat that has been recalled has actually 
grown. So there is a connection there.
    Mr. Kucinich. OK. Now, Mr. Mande, what does USDA inspected 
mean, then? You know, should the public have confidence in that 
if you have so many deficiencies that are being pointed out by 
GAO? You know, there is a stamp, USDA inspected. What does that 
mean?
    Mr. Mande. It means something quite important for the 
public. It is something they can have confidence in, and 
something we are enormously grateful to the Congress in 
providing it to us. I had the privilege before I came to FSIS 
to do food safety at the Food and Drug Administration. What 
that mark of inspection provides is it does not go on the food 
until our inspector can assure the food is safe. You don't have 
that in other food. Now, we did do----
    Mr. Kucinich. What if you don't have enough inspectors? 
What happens? What if you have deficiencies that GAO is 
pointing out? What does USDA----
    Mr. Mande. I am listening and very interested in----
    Mr. Kucinich. What does it mean.
    Mr. Mande. Sorry. I am very interested in their findings 
and looking into that, but, again, you know, Congress has 
provided us extraordinary opportunity and tools at FSIS in how 
we do food safety. We are required to do inspection of every 
animal livestock before it is slaughtered. We are required to 
do carcass-by-carcass inspection, every animal. We are required 
to be in every slaughter plant every day.
    Those are great tools that Congress has provided us to do 
that. If we don't----
    Mr. Kucinich. Ms. Shames----
    Mr. Mande [continuing]. Have enough inspectors to do it, 
then the plant shuts down.
    Mr. Kucinich. Does that mean there is a public health issue 
here?
    Mr. Mande. No. The plant shuts down, so I hear what she is 
saying and----
    Mr. Kucinich. How many plants have you shut down?
    Mr. Mande. If we don't have someone who can----
    Mr. Kucinich. No, no. Name the plants that you have shut 
down. Just name a number of plants that you have shut down. 
Give me a list.
    Mr. Mande. We don't, and it is because we do have enough 
inspectors.
    Mr. Kucinich. Pardon?
    Mr. Mande. If we don't have adequate inspectors, if they 
are not there to be able to examine every animal antemortem, if 
they are not there to be able to do carcass-by-carcass 
inspection, that plant can't run, and we are very thankful to 
the Congress that it has provided us both that law and the 
resources each year to make sure that we can do that.
    Mr. Kucinich. So you are saying you don't have inspectors 
then they can't run, but you do have inspectors and they do 
run?
    Mr. Mande. Say that again, sir? Sorry.
    Mr. Kucinich. That if you don't have inspectors, the plants 
can't run.
    Mr. Mande. That is right.
    Mr. Kucinich. And so how many plants have been shut down?
    Mr. Mande. For that reason, none that I am aware of.
    Mr. Kucinich. OK. You are short of inspectors----
    Mr. Mande. No, I didn't say that, sir.
    Mr. Kucinich. You have enough inspectors. Then why do you 
have deficiencies?
    Mr. Mande. I am looking. I want to read the report 
carefully, and because----
    Mr. Kucinich. You haven't----
    Mr. Mande. Well, we didn't see the final, but from the 
draft I thought there was a lot of good information there that 
will help us do a better job, and, you know, the President, 
with the Food Safety Working Group that Secretary Vilsack, and 
the instruction he gave me, when I came to the Department the 
reason I came back to Government again to do this work is 
because of their commitment to make sure that we provide safe 
food and humane handled animals. And so if there are lessons to 
be learned--but I do know, sir, that one thing that we have is, 
having worked at FDA and others where they have to go about 
food safety in a very different way, but the way we are able to 
do it where Congress has, in the law, required that we have 
inspectors in those plants continuously each day and has 
provided us the resources to provide the inspectors is an 
enormously powerful tool, and we have a commitment to the 
public then to make sure that we are doing an outstanding job.
    Mr. Kucinich. Ms. Shames, you have reviewed numerous 
noncompliance reports, other FSIS data. You have interviewed 
hundreds of inspectors. Based on your findings, do you think a 
slaughter plant owner faces a reasonable chance of suffering 
severe consequences for repeated abuses of animals and 
violations of the Humane Slaughter Act?
    Ms. Shames. That is actually a recommendation that we made 
in 2004, that FSIS' guidance needs to be clearer in terms of 
when an enforcement action should be taken. I think the Bushway 
example illustrates what we mean by this. There were three 
successive suspensions at Bushway before more drastic action 
was taken. And this is what we are getting at when we are 
saying that the guidance needs to be clearer in terms of when 
an action should be taken.
    Mr. Kucinich. Let me followup with that. Do you think FSIS 
has in place the oversight and tracking capabilities necessary 
to know whether or not the kind of violations we have seen at 
Hallmark-Westland or at Bushway are isolated incidents?
    Ms. Shames. Inspectors do keep track of the time that they 
spend on humane handling activities. They do that in 15-minute 
increments, and FSIS can report that. But what we are finding 
is--and I think this is a rich source of information that FSIS 
has not taken advantage of--is reading through the 
noncompliance reports, themselves. This is a responsibility 
that has been delegated down to the district level. We feel 
that if it were looked at from a departmental level that the 
anomalies, the inconsistencies that we just described could 
help FSIS target the resources, target the training, take those 
actions that would help better its performance in terms of 
humane handling.
    Mr. Kucinich. Thank you.
    Mr. Welch.
    Mr. Welch. I yield back the balance of my time.
    Mr. Kucinich. Thank you.
    I just have a few more questions here.
    Dr. Wyatt, in your experience, what actions taken by your 
supervisors in management at FSIS have been the most 
counterproductive to the mission of enforcing the Humane 
Slaughter Act?
    Dr. Wyatt. The most counterproductive is they actually 
encourage the plant to obstruct the inspector's work.
    Mr. Kucinich. They encourage the plant to do what? Would 
you----
    Dr. Wyatt. They actually encourage, by not supporting the 
inspector when he takes an enforcement action, they are 
encouraging the establishment for that action and further 
actions just to push the line in terms of egregious humane 
handling or any humane handling event or food safety. In my 
case, I was always shot down, so to speak, by my supervisors. I 
would walk by a plant foreman; they would laugh at me. I would 
go up to trim--I would give a rail inspector his break. Plant 
foreman would come up and tell my trimmer: This guy doesn't 
know anything. Don't trim what he tells you. Just trim what you 
see. I mean, that is an example of the most egregious action a 
supervisor can take, because when you don't support your 
inspectors you are just as guilty of breaking the law as the 
establishment, in my view.
    Mr. Kucinich. With what you have gone through as a 
whistleblower, what did that USDA inspected label come to mean 
to you when you looked at it after your experience? Tell us 
about that.
    Dr. Wyatt. That is a very good question. The vast majority 
of our inspectors are terrific. The inspector at Bushway----
    Mr. Kucinich. They want to enforce the law.
    Dr. Wyatt. They do. They work very hard. They work very 
hard under extreme difficult situations, circumstances: angry 
plant managers, the gamut. So they work very hard, so I am very 
confident in that stamp of inspection. I disagree in the 
comment about the staffing. When I was at Seaboard, we had to 
pull our offline inspection people online all the time. We were 
short-staffed all the time at Seaboard. So there is a staffing 
problem.
    Mr. Kucinich. OK. So what are the implications of short 
staffing? Why should the public be concerned about this?
    Dr. Wyatt. Because when you pull an inspector, an offline 
inspector online to fill an online vacancy, that offline task 
is not being done. Most tasks are being put into the computer, 
not performed.
    Mr. Kucinich. What are those tasks?
    Dr. Wyatt. Humane handling, sanitation, operational 
sanitation, check labeling, all kinds of things, HACCP, fecal 
contamination checks, all kinds of tasks are not being done 
because that inspector is filling another spot. The plant is 
operating, as he said. Sure, they are operating, but they are 
short staffed. They don't have the staff to perform all the 
tasks that they are supposed to be doing.
    Mr. Kucinich. So what does FSIS need to do at the upper 
management level to do a better job? What do they need?
    Dr. Wyatt. You know, in my 18 years of experience I have 
never seen a district manager, deputy district manager, ever 
visit a plant in the field. We need to have those district 
managers, deputy district managers, out of the office visiting 
the plant, talking to the inspectors. They don't even know the 
names of most of their inspectors. They need to be out in the 
field talking to people rather than sitting in the office. That 
is what they need to do, in my view.
    Mr. Kucinich. I want to thank the witnesses for being here 
now. A number of things have been said. I have been watching 
Mr. Mande try to get into the response here. Is there anything 
you want to say to respond to anything that has been said?
    Mr. Mande. No, thank you.
    Mr. Kucinich. Given the seriousness of the FSIS' role in 
assuring the safety of the food consumed by the American 
people, this subcommittee will maintain an active role of 
oversight of your division.
    I want to thank Ms. Shames for the report, which I think 
will provide some guidance.
    I know you will get a chance to get into in depth, Mr. 
Mande. I hope you will look at it carefully.
    And Dr. Wyatt, the country really owes you a debt of 
gratitude. You put your career on the line just to do the right 
thing. It is not easy for whistleblowers to take on a 
bureaucracy, a Federal establishment. You knew the risks, and 
you took the risks. Because of you, there are going to be 
established metrics to assure that the public's consumption of 
certain types of food is going to be more rigorously inspected 
and that there will be a little bit better assurance, a little 
more public confidence in the process. So it is people like you 
who are in a very proud tradition of individuals, good 
Americans who came forward and did the right thing, even when 
it was against their own personal interest. So this committee 
is quite appreciative of your actions. I think that the 
Department of Agriculture owes you a public apology. I want to 
thank you for being here.
    I want to thank the witnesses. This first panel is 
dismissed, and we are now going to go immediately to the second 
panel.
    Dr. Wyatt. Thank you, Mr. Chairman.
    Mr. Kucinich. As they are moving toward the table, I am 
going to make some introductions so we can get right into this.
    Mr. Stanley Painter is the chairman of the National Joint 
Council of Food Inspection Local Unions of the American 
Federation of Government Employees, AFL-CIO. Prior to this he 
served for 24 years as a USDA inspector, working in both 
poultry and red meat. He has held other positions in the Joint 
Council of Food Inspection Local Unions, including serving as 
the local president and vice president for Alabama and the 
Southern Council president.
    Mr. Bev Eggleston is the owner and founder of Ecofriendly 
Foods LLC in Moneta, VA, a small slaughter operation serving 
family farms in Virginia and the mid-Atlantic region. Mr. 
Eggleston is an advocate for and a practitioner of small, 
ethical family farming and raising pasture-fed animals. He 
raises, processes, markets, and distributes grass-fed beef, 
pork, lamb, poultry, and eggs at farmers' markets, home buying 
clubs, and many restaurants in New York City, Washington, DC, 
and elsewhere.
    Mr. Wayne Pacelle is president and chief executive officer 
of the Humane Society of the United States, which is the 
Nation's largest animal protection organization, with 11 
million members and constituents. He is our final witness. He 
served the organization in a variety of positions since 1994, 
and in his time as president and CEO he has overseen several 
successful mergers of the Humane Society with other animal 
protection organizations. In the last decade, Mr. Pacelle and 
the Humane Society have worked for the passage of more than 500 
new State laws and 25 Federal statutes to protect animals.
    To the witnesses, it is the policy of our subcommittee and 
the Committee on Oversight and Government Reform to swear in 
all witnesses before they testify.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much. Let the record reflect 
that each of the witnesses answered in the affirmative.
    Mr. Painter, you are our first witness on the panel. As I 
indicated on the other panel, keep your testimony under 5 
minutes in length. Your entire written statement will be 
included in the record of this hearing. I ask that you proceed 
right now. Thank you.

STATEMENTS OF STANLEY PAINTER, CHAIRMAN, NATIONAL JOINT COUNCIL 
 OF FOOD INSPECTION LOCALS, AMERICAN FEDERATION OF GOVERNMENT 
  EMPLOYEES; BEV EGGLESTON, OWNER, ECOFRIENDLY FOODS LLC; AND 
WAYNE PACELLE, PRESIDENT AND CEO, HUMANE SOCIETY OF THE UNITED 
                             STATES

                  STATEMENT OF STANLEY PAINTER

    Mr. Painter. Yes, sir. I would like to start out by saying 
that I am here, although as an FSIS employee, I am here 
representing my union and the food inspectors.
    Chairman Kucinich, Ranking Member Jordan, and members of 
the subcommittee, my name is Stan Painter and I am the chairman 
of the National Joint Council of Food Inspection Locals, which 
is affiliated with American Federation of Government Employees. 
I would like to thank you for inviting us to participate in 
today's important hearing on the Humane Methods of Slaughter 
Act.
    The National Joint Council represents some 6,500 non-
supervisory meat, poultry, and egg products inspectors who work 
for FSIS. We provide continuous inspection to some 6,300 
domestic food establishments and 130 import establishments to 
ensure the safety and wholesomeness of products covered by the 
Federal Meat Inspection Act, the Poultry Products Inspection 
Act, and the Egg Products Inspection Act.
    Humane Methods of Slaughter Act: our responsibilities also 
include enforcement of the Humane Methods of Slaughter Act. As 
you know, the HMSA requires that livestock, before being 
slaughtered, are rendered insensible to pain by a single blow 
or gunshot or electrical, chemical, or other means that is 
rapid and effective. My union strongly supports enforcement of 
this act, and we take our responsibilities under this act very 
seriously.
    There are problems enforcing the act. Unfortunately, these 
problems with enforcing the act lie in what I have determined 
to be three categories: FSIS does not make enforcement of the 
act the priority; there are just not enough FSIS inspectors to 
keep up with the volume of livestock going to slaughter in the 
enforcement of the act and all of the other food should laws 
and regulations; there is confusion as to what latitude FSIS 
inspectors have to enforce the act.
    Now, with regard to the first area, that is, No. 1, FSIS 
does not make enforcement of the act a priority. A good example 
of this is the basic training of the inspectors to receive and 
carry out their responsibilities. This basic training just does 
not make the enforcement of the act a priority. I can speak 
from direct experience, since this past July I took a basic 
food safety regulatory essentials FSRE training that the agency 
offers to the inspectors. The instructor at the training spent 
only a few minutes out of the 13 days explaining the Humane 
Methods of Slaughter Act.
    Another example, when the Westland-Hallmark scandal broke 
in 2008, the agency promised Congress that FSIS inspectors 
would receive additional training to enforce the provisions of 
the act; however, all we received is a little online training 
module that we could access through the internet to refresh our 
knowledge about the responsibilities of the act, and there was 
no followup by the agency management to emphasize the 
importance in the enforcement of the act.
    Second, there is just not enough inspectors to keep up with 
the large volume of livestock going through slaughter to 
enforce the act and all food safety laws and regulations. We 
are still experiencing serious staffing shortages in various 
parts of the country. I do not have access to the staffing 
numbers for 2009, but through a Freedom of Information Act 
request I have obtained the 2008 staffing numbers and have 
attached them with my written testimony. You will note that 
some FSIS regions are experiencing double digit vacancy rates, 
especially the Albany district. The agency has worked in recent 
years to close the vacancy gap, but they are experiencing 
problems with, one, replacing the large number of retiring FSIS 
inspectors, and, two, closing the chronic staffing shortages 
which that region has suffered for years.
    No. 3, third and finally, there is confusion as to what 
latitude FSIS inspectors have to enforce the act. As a result 
of congressional concerns about the act's enforcement, the 
agency a few years ago began hiring district veterinary medical 
specialists. They are responsible for acting as a resource to 
inspectors on the act in each of the 15 districts. 
Unfortunately, we rarely see the veterinary specialists 
visiting the plant. They are rarely in the field. We are 
hamstrung by our supervisors, who are either not qualified to 
do their jobs, unwilling to let us do our jobs, or are not 
committed to making animal welfare a priority, either in FSIS-
regulated facilities or in the private lives.
    In closing, I want to thank you again for inviting us to 
participate in this important hearing. I will be happy to 
answer any of your questions.
    [The prepared statement of Mr. Painter follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.038
    
    [GRAPHIC] [TIFF OMITTED] T5127.039
    
    [GRAPHIC] [TIFF OMITTED] T5127.040
    
    [GRAPHIC] [TIFF OMITTED] T5127.041
    
    [GRAPHIC] [TIFF OMITTED] T5127.042
    
    [GRAPHIC] [TIFF OMITTED] T5127.043
    
    [GRAPHIC] [TIFF OMITTED] T5127.044
    
    [GRAPHIC] [TIFF OMITTED] T5127.045
    
    Mr. Kucinich. Thank you.
    Mr. Eggleston, you may proceed.

                   STATEMENT OF BEV EGGLESTON

    Mr. Eggleston. Good afternoon, Chairman Kucinich, Ranking 
Member Jordan, and members of the Domestic Policy Subcommittee. 
I appreciate the opportunity to share with you my testimony in 
this hearing regarding the enforcement of the Humane Slaughter 
Act.
    I am Bev Eggleston, founder and president of Ecofriendly 
Foods, located in Moneta, VA. For 7 years our company has 
operated a USDA-inspected, small-scale, multi-species certified 
humane slaughter plant serving dozens of livestock producers, 
and it is in this capacity that I appear before you and the 
committee today.
    In April 2008 I appeared before this subcommittee as the 
only person doing what I do. The ability for my business to 
survive was in question, but today I am here to tell you that 
the business has not only survived, but it has thrived, despite 
many economic challenges. With the support of this subcommittee 
and the agriculture economies of many communities throughout 
the United States, we could benefit from the expansion of a 
safe, humane, and transparent model.
    The trend in the meat packing industry is that big guys are 
getting bigger and the small guys are disappearing. This trend 
toward consolidation raises several important issues for this 
oversight committee and should serve as a basis for the 
congressional action going forward.
    First, there are significant concerns in the safety of our 
meat supply. The largest beef, pork, and poultry processors 
operate at high volume and high speed to present many concerns. 
When hundreds of animals per hour are being processed, it is 
extremely challenging for inspectors to do their job and ensure 
the safety of our Nation's food.
    Furthermore, when the meat of thousands of cows are mixed 
into single batches of ground beef, consumers are put at risk. 
The industry's only answer is to cook everything until it is 
well done, and not everybody will. This only puts a band-aid 
over the real problem.
    At Ecofriendly Foods' processing facility we only use one 
cow to make a single batch of ground beef. By not mixing our 
animals, we inherently minimize the potential for spreading any 
bacteria and contamination. Plus, because our ground beef comes 
from just one cow, and if there was a batch of contaminated 
meat--which there never has been--it would be a small quantity 
and thus small exposure to consumers, and it would be also 
easily traceable.
    The size and frequency and the public health impact of 
numerous product recalls and food-borne illness outbreaks trace 
the products from the Nation's largest packing operations, are 
testimonial to these problems.
    Second, animal welfare. Not only does the high volume and 
speed of large processing plants affect Federal inspectors' 
ability to ensure the safety of our Nation's food, but also 
inhibits their ability to comply with the Humane Slaughter Act. 
Furthermore, we believe that there are serious animal welfare 
issues not being addressed in the Humane Slaughter Act.
    American consumers are increasingly sensitive and insistent 
upon higher standards of welfare for the Nation's food animals. 
At Ecofriendly Foods, we respect the animals at all stages of 
its life, not just the antemortem stage addressed in the Humane 
Slaughter Act. Our animals are always treated humanely and are 
never subjected to any painful or stressful treatment. This 
attention to the welfare of our animals is reflected not just 
on our farms, but also on our loading, hauling, and off-loading 
techniques, all the way through our very thoughtful method of 
harvesting and slaughtering.
    Without the availability of regional and local packing 
plants, too many animals must travel thousands of miles to be 
processed, and the problem endemic to the large plants are thus 
exacerbated.
    At Ecofriendly Foods we purchase livestock from over 40 
small family diversified farms. Few, if any, of them would be 
able to continue in their livestock business if they did not 
have access to our plant and the premium prices we offer.
    There is a solution that not only mitigates food safety 
problems inherent in our high-volume industrial meat packing 
system, but that also addresses the humane handling challenges 
mentioned. This solution is to widely replicate a model of 
small, regional, USDA-inspected, multi-species slaughter 
plants. What Ecofriendly has accomplished in the southwestern 
part of Virginia has brought many benefits to our family farms 
and the communities in which they live.
    Here is what I believe Congress can do to address the 
concerns related to the consolidation of meat packing systems. 
First, there should be financial assistance in the form of low-
cost loans and grants for small-scale processing facilities 
that serve local communities.
    Second, in the interest of this wise allocation of the 
potential funding, we believe Congress should immediately 
authorize a rural economic impact study.
    Third, we need Congress to direct USDA to provide technical 
assistance to small-scale producers and processing facilities 
and to educate the inspectors on the unique aspects to these 
small-scale processing plants' needs.
    Finally, the USDA has a one-size-fits-all to meat 
processing regulations that does not make sense. We need 
Congress to authorize an examination of current USDA 
regulations as they apply to small-scale processing facilities 
and to implement a new and distinct set of standards where 
appropriate.
    Ideally, there should be several, if not dozens, of these 
small, local-operating slaughter facilities available to 
farmers in every State and region. This would sustain the 
current growth of small-scale livestock raising and encourage a 
new generation of farmers to become producing members of our 
agricultural sector. The economic benefits to rural America in 
such investment would be substantial.
    Our total gross sales during the implementation of our 
model thus far is $3.1 million; $1.5 million has gone straight 
into the pockets of our producers. This directly stimulates 
their economies and jobs.
    In summary, Ecofriendly Foods' growth of 326 percent since 
2006 strengthens my belief that the impacts and replication of 
such successful small-scale meat processing facilities across 
our country could be huge. Impacts could include the decrease 
of the cost of our Nation's health care system and the carbon 
footprint, as well as increase our homeland security, our 
environmental protection, our rural economic stimulus, and 
humane treatment of animals. Growing American concerns of these 
issues are clear indicators that consumers desire to know what 
is on the end of their fork.
    I am fully prepared to discuss further my experience in 
these topics, and I kindly thank you for your time and 
attention.
    [The prepared statement of Mr. Eggleston follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.046
    
    [GRAPHIC] [TIFF OMITTED] T5127.047
    
    [GRAPHIC] [TIFF OMITTED] T5127.048
    
    Mr. Kucinich. Thank you, Mr. Eggleston.
    Mr. Pacelle, you may proceed with your testimony.

                   STATEMENT OF WAYNE PACELLE

    Mr. Pacelle. Mr. Chairman, thank you very much for inviting 
me to testify. I want to thank you for your commitment to 
animal welfare. I want to thank you also for continuing on with 
the examination of this important issue, this being the second 
hearing that you as chairman have instructed proceed.
    I will tell you that this is a very distressing issue for 
me personally. We have been really trying to work on this issue 
at the Humane Society of the United States from a variety of 
perspectives. We want to see USDA and FSIS succeed, and we have 
been working hard in Congress to see that the Agriculture 
Appropriations Committee and, of course, the entire Congress 
provide sufficient funding for enforcement.
    We have been distressed at the job that has been done 
through the years, and I do want to thank all of the witnesses 
here today for their testimony. I have learned a lot from it. 
And I do want to thank in particular Dr. Wyatt for stepping up, 
and I concur with your view that he acted courageously in 
stepping up and highlighting problems that, unfortunately, from 
our vantage point appear to be chronic. These are not just bad 
apples; they are systemic problems.
    I will tell you, Mr. Chairman, that we are not a law 
enforcement agency. We are lucky to have so many millions of 
Americans support us. But we work on all animal issues and we 
can't investigate every problem of animal cruelty and all of 
the harmful human/animal interactions in this country, but we 
have looked a few times at slaughter plants and we have looked 
at intermediate transport points for animals like stockyards 
and auctions and, Mr. Chairman, every time we have looked we 
have found problems, not just the Hallmark-Westland plant where 
the abuses were egregious and where FSIS had a full complement 
of inspectors present, but also at Bushway. And in between we 
looked at five auctions and stockyards in four different 
States. At every turn we found problems. We found mishandling 
of animals. We found downer animals being tormented. We found 
widespread use of electric shock, misuse of heavy machinery 
such as fork lifts. So many different problems that we have 
come to see. We desperately want to see progress in these 
areas.
    We worked with Senator Byrd and other Members of Congress 
to push for the district veterinary medical specialists to be 
hired, and we saw that this was an opportunity to layer over 
the inspectors and to really put more attention on this 
problem. But we have seen in too many cases it has been more 
bureaucracy and that their attention has been diverted to other 
matters, not to humane handling issues, but to some of their 
other important responsibilities.
    But we believe that humane handling should be core to what 
the agency does. It shouldn't be an adjunct. It shouldn't be an 
occasional attention grabber. It should be part of the daily 
responsibility.
    We are very distressed in the past about high-level 
officials suppressing proper enforcement, because that is 
essentially what Dr. Wyatt testified about today is that his 
inspections--he's the thin blue line, if you will, at the 
plants, and when he tried to enforce the law that information 
was suppressed and he was penalized.
    I will tell you, Mr. Chairman, that I have had the pleasure 
of speaking with a number of senior USDA officials in this new 
administration. I am encouraged by Secretary Vilsack's 
commitment to these issues. I was pleased to hear about Mr. 
Mande's comments, and we look forward to working with them. I 
want to thank them for immediately shutting down the plant once 
we provided the investigative footage.
    But now we have an opportunity for real reform, and just 
shutting down the plant is insufficient. We have a moment now 
to really address these issues in a fundamental way.
    I am pleased to hear about the humane handling enforcement 
coordinator that Mr. Mande mentioned. That is important.
    I want to associate the Humane Society with Dr. Wyatt's 
comment about the importance of an ombudsman to provide 
inspectors with an avenue to take their concerns and grievances 
and to help ensure that they are able to carry out their 
responsibilities for both food safety and humane enforcement.
    Mr. Chairman, I really do believe that we need a mobile 
review team. Humane Society undercover investigators served 
that function by going undercover and getting behind the scenes 
and figuring out what's going on and documenting. USDA and FSIS 
should have its own mobile investigations unit. They should be 
transparent at times, but even undercover, as necessary, to 
sniff out problems that exist.
    Of course, inspectors who aren't doing their jobs should be 
fired. They should not be allowed to continue in this important 
role, because we are not just talking about billions of 
animals, we are talking about hundreds of millions of American 
consumers. What is greater, in terms of the animal welfare 
suffering quotients and the human suffering quotient, than our 
food supply? It is a staggering responsibility, and there 
should be a zero tolerance policy for failures in terms of the 
performance of the inspectors and the agency.
    Mr. Chairman, I am going to wrap up, but I just want to 
mention a few things briefly in terms of other policy reforms, 
not just enforcement but policy reforms.
    One is there is still a loophole in the Federal downer law. 
These calves are legally held in some ways for these purposes, 
so there is a loophole that allows downer calves to be set 
aside and reevaluated for----
    Mr. Kucinich. What do you mean by downer?
    Mr. Pacelle. Downer animals are non-ambulatory livestock. 
They are animals who are unable to stand and to walk, and in 
March the Obama administration closed the loophole on the 
downer issues and some of that came to light through our 
Hallmark-Westland investigation. But there is still a problem 
in enforcement, because these young male calves that are 
literally born just a few days before are sent to these plants, 
and if they are under a certain size they can be set aside and 
reevaluated for possible slaughter. We think that is a problem. 
We have petitioned the USDA. We want the USDA to close that 
additional loophole.
    We also want to end the transport of baby calves to 
slaughter. As Dr. Wyatt said, these animals are just coming 
from the womb. They are not getting fed. They are babies. They 
are weak. And they are in long-distance transport, and then 
they are being occasionally, as we saw, mishandled at these 
facilities.
    I think, Mr. Chairman, finally, the biggest problem is that 
95 percent of all animals slaughtered for food in the United 
States are not covered by the Humane Methods of Slaughter Act. 
All poultry are entirely excluded. Nine billion animals raised 
for food in the United States are not covered under the Humane 
Methods of Slaughter Act because they have been carved out. It 
is time for the Congress to close that loophole. We do believe 
that the Agriculture Secretary can designate poultry an 
amenable species and include them under the protections, but 
the Congress can act, as well. Those are critical reforms.
    We thank you for the opportunity of testifying here today 
and thank you for your commitment to this issue.
    [The prepared statement of Mr. Pacelle follows:]

    [GRAPHIC] [TIFF OMITTED] T5127.049
    
    [GRAPHIC] [TIFF OMITTED] T5127.050
    
    [GRAPHIC] [TIFF OMITTED] T5127.051
    
    [GRAPHIC] [TIFF OMITTED] T5127.052
    
    [GRAPHIC] [TIFF OMITTED] T5127.053
    
    [GRAPHIC] [TIFF OMITTED] T5127.054
    
    [GRAPHIC] [TIFF OMITTED] T5127.055
    
    [GRAPHIC] [TIFF OMITTED] T5127.056
    
    [GRAPHIC] [TIFF OMITTED] T5127.057
    
    Mr. Kucinich. Thank you very much, Mr. Pacelle.
    Mr. Painter, in your testimony you said that in 2009 you 
oversaw the slaughter or we oversaw the slaughter and 
processing of 112 million domestic head of livestock and 6.7 
billion domestic poultry animals. Are there enough inspectors 
to be able to ensure that the food which the American people 
are consuming is adequately inspected, and so fit for 
consumption, so they can have confidence that what they eat 
they are going to be safe?
    Mr. Painter. No, sir. Not only is there not enough 
inspectors, there is not the ability to do the job.
    We actually have a provision in our contract, our national 
contract. Article 5, section 15, states that it is conflicting 
orders. We actually had to put that provision in the contract 
because we were getting so many different orders in the field. 
You know, you are to follow the last instructions given. So it 
changes from day to day.
    Mr. Kucinich. In your prepared testimony, you said that 
enforcement of the Humane Slaughter Act is not a priority of 
the agency to enforce. What are the implications of that, in 
your mind as someone who has worked as an inspector? What 
happens if the Humane Slaughter act is not enforced?
    Mr. Painter. You know, from what we are seeing in the 
field, it is just not a big issue. And it was said earlier----
    Mr. Kucinich. It is not what?
    Mr. Painter. It is not a big issue. I mean, it is a routine 
thing. Let's go out. Let's do antemortem and let's run back in 
the plant. That is----
    Mr. Kucinich. You are saying that management hasn't made it 
a big deal?
    Mr. Painter. Management has not made it----
    Mr. Kucinich. Do you think it is a serious thing?
    Mr. Painter. I do. I do.
    Mr. Kucinich. Why?
    Mr. Painter. A number of things have brought out. Other 
than the cruelty to the animals, it certainly has a food safety 
aspect, as well, which has been brought out before, you know. 
Our concerns are----
    Mr. Kucinich. If you knew for sure that beef or poultry 
that was presented to you for consumption was not properly 
inspected and the Humane Slaughter Act was not enforced, would 
you have any misgivings about consuming such beef or poultry?
    Mr. Painter. Certainly.
    Mr. Kucinich. Why?
    Mr. Painter. Well, No. 1, there is an ethical portion that 
I think that we are missing as agency employees. We should have 
a high ethical standard. I am not saying that the inspectors 
don't have a high ethical standard; they do. But we get so much 
going on from our management. And let me give an example of 
what is going on.
    Mr. Kucinich. What about the second thing? Tell me about 
the health issues.
    Mr. Painter. Well, you know, as mentioned earlier, you have 
downer animals that are laying in their own feces, and in the 
process you can get E. coli contamination from animals that 
have been lying in their own feces. An animal that----
    Mr. Kucinich. Mr. Mande, who was up here earlier--is Mr. 
Mande still here? He seemed to imply that this is just an 
isolated case. Even the way the Department handled it, they 
condemned it quickly, as they should. Is it an isolated case as 
far as you are concerned?
    Mr. Painter. I will take a quote from a former Governor of 
Alabama: it is not the first time it happened; it is just the 
first time they got caught. So I have no reason to believe it 
is an isolated case because, as mentioned earlier, part of the 
time it is a staffing issue. Mr. Mande mentioned that the 
slaughter lines, according to the Meat Inspection Act, they are 
supposed to be manned. You are supposed to have bird-by-bird 
and carcass-by-carcass inspection. But when you meet that, part 
of the time you don't meet the guidelines for other provisions.
    Mr. Kucinich. I noted with interest the figures that you 
produced for this committee about the in-plant inspection 
vacancy rate; in other words, how many inspectors you are 
short, right?
    Mr. Painter. Yes, sir.
    Mr. Kucinich. Am I correct in saying that Des Moines and 
Chicago are two of the largest processing areas?
    Mr. Painter. They are.
    Mr. Kucinich. And what percentage of the livestock that is 
being processed goes through those areas?
    Mr. Painter. I am going to estimate probably about a half 
that go through the Nation.
    Mr. Kucinich. So if you have in Des Moines from February 
2008 to September 2008, if you have consistent double digit 
deficiencies, what does that mean?
    Mr. Painter. That means the slaughter line is going to be 
staffed and the offline duties are going to go by the wayside, 
such as the antemortem and humane slaughter.
    Mr. Kucinich. And if you have in Chicago, which is the 
other major packing and slaughter and processing, double digit 
in-plant inspection vacancy rates from April 2008 through 
September 2008, that means the same thing, I take it, right?
    Mr. Painter. Yes, sir.
    Mr. Kucinich. And what about in Albany? Albany, for some 
reason, is very high, 17.6 percent. It started in February 2008 
to 16.3 percent September 2008. What do they process in Albany? 
Do you remember offhand?
    Mr. Painter. Mainly Albany is processing areas. You have, 
of course, the Albany district covers the plant in Vermont that 
has been a focus of this meeting, but----
    Mr. Kucinich. So would you say there could be a connection 
between then the adverse impact on the animals with respect to 
enforcement of the Humane Slaughter Act on one hand, questions 
of food safety on another, connected directly to not having 
enough inspectors?
    Mr. Painter. Yes, sir.
    Mr. Kucinich. OK. Now, Mr. Pacelle, you have testified that 
everywhere you have sent your inspectors they found animal 
abuses and legal violations. So you would dispute then the 
implication that when we saw quick action against, let's say, 
Bushway, that was just an isolated incident?
    Mr. Pacelle. Well, I think, Mr. Chairman, not only if you 
are seven for seven--if you have seven investigations at 
facilities, stockyards or slaughter plants, and you find 
problems in every one, it doesn't really take a person with a 
lot of insight to come to the conclusion that there is probably 
a systemic problem.
    I think compounding that, at Hallmark, going back to that 
investigation of 2008 in Chino, CA, USDA had named Hallmark the 
supplier of the year as recently as 2005, and they had just 
touched--there were a couple of citations for----
    Mr. Kucinich. Weren't they supplying beef for the school 
lunch program?
    Mr. Pacelle. Yes. They were the No. 2 supplier to the 
National School Lunch Program.
    Mr. Kucinich. And isn't that why a recall was established 
once it was revealed what the poor sanitation practices that 
existed?
    Mr. Pacelle. I think the concern was that these were downer 
calves. This was a cull calf slaughter plant. These were spent 
dairy cows. Many of them were incapable of walking. And the 
data from Europe where people have died as a consequence of Mad 
Cow Disease showed that non-ambulatory cattle are 48 times more 
likely to have Mad Cow Disease, or BSE, than ambulatory cattle.
    And then Mr. Painter mentioned the issue of fecal 
contamination. These animals are on the ground and they are 
wallowing in manure, and that can contaminate the machinery.
    Mr. Kucinich. You send all these inspectors out. I mean, 
were your inspectors acting on tips? Were they just lucky to 
find this, or do you think that the size of the problem of poor 
enforcement of animal handling laws is a much bigger problem 
than we might really want to face?
    Mr. Pacelle. Let me just say that at Hallmark-Westland 
there were five workers for FSIS, and that plant got 
consistently high ratings, and I believe there were 17 third-
party audits that the company had paid for and always got the 
highest ratings. We had one guy who was an animal handler, so 
he was helping to offload the animals and then he would move 
them toward the slaughter area, and he was there for 6 weeks 
and documented case after case of terrible abuses.
    I think, Mr. Chairman, that the issue is that--I mean, 
there are a couple of problems. Historically speaking, USDA has 
been too close to the meat industry. They have been a promoter 
of the industry. They haven't been a regulator. It has just 
become too incestuous, and this is what we are hoping that 
Secretary Vilsack continues in his efforts to really have a 
proper regulatory function.
    I also want to mention that we have problems with the law, 
itself. The tool that the inspectors have is to shut down the 
plant. Under the Federal law, there are no criminal penalties 
for serious abuses. That is why we had to go to the local 
authorities, to the district attorney. And then we also think 
there should be fines. I mean, these companies are treating 
these animals like meat machines.
    Mr. Kucinich. Right. And I would say that our subcommittee 
looks forward to working with you in drafting legislation that 
can make for more effective enforcement.
    I just want to ask a question that I keep hammering away at 
here. The connection between non-compliance of humane animal 
handling laws and food safety, comment on that, please.
    Mr. Pacelle. Well, I think the issue of downers, you know, 
was debated for 20 years in this Congress, and the meat 
industry fought it every step of the way. We warned that a 
downer cow was going to be found with Mad Cow Disease, and that 
is exactly what happened in 2003 at a slaughter plant in 
Washington State. What resulted was not only a food safety 
crisis, but more than 50 nations closed their markets to U.S.-
produced beef, and that had a multi-billion-dollar impact. 
There was a study done that said it was a $12 billion impact. 
So the industry was penny wise and pound foolish. They are 
trying to extract every dime from the most hapless and 
suffering animals by pushing them ahead into the process to 
kill them, and they are potentially sacrificing--I mean, they 
are certainly sacrificing the well-being of those animals, but 
also the public. I quoted that information. We know E. coli, 
Mad Cow Disease, other problems are associated with the 
mistreatment and mishandling of animals.
    Mr. Kucinich. I think it is really important that message 
gets out to the public, because if they think this is just a 
matter of people who have sympathy for animals that somebody is 
going to eat anyway, and so who cares, there is a direct 
connection between the enforcement of animal handling laws and 
food safety. If people understand that, they should take an 
interest in how those animals are treated.
    Mr. Pacelle. And it is more than just at the slaughter 
plants. We are dosing animals on factory farms with antibiotics 
for non-therapeutic reasons. They are in over-crowded 
environments. Because the farms are so crowded, they know the 
animals are going to get sick, so they try to dose them with 
antibiotics which leads to antibiotic resistant bacteria. These 
are the same classes of antibiotics that we use when children 
are sick or adults are sick.
    Mr. Kucinich. I think you have made another appearance as 
the confined animal feeding operations, a serious issue for 
public safety, as well as the humane treatment of the animals.
    Mr. Pacelle. And those are the animals coming to the 
slaughter houses.
    Mr. Kucinich. Let me do this. We are going to wrap this up 
in a minute, but I have just a few questions of Mr. Eggleston.
    As you note in your testimony, the slaughterhouse industry 
is getting more and more concentrated into larger and larger 
companies. Is there a connection between the way we regulate 
the industry and increasing concentration of it? And are bigger 
companies more adept in thriving under the specific regulations 
we have?
    Mr. Eggleston. Yes, sir, Mr. Chairman. I think that in 
general the scale in which the industry has built itself stands 
directly in the way, as my testimony stated, for inspectors to 
do their job. I just think there is too many animals, too high 
a pace for them to actually get their eyes wrapped around each 
animal to make sure that animal is conducive for harvest or 
slaughter.
    The consolidation of the industry is why I felt like we had 
to do something different. If I felt like the industry was 
sound and appropriate in their oversight as well as their 
production, I wouldn't have had to go out and prove an almost 
unimaginable task of starting a small alternative parallel food 
system. So from farm to plate we are in control of every single 
step. That is a model that I think brings an alternative to the 
huge consolidation. That consolidation is a threat to every 
American consumer because of the inability to make sure that 
every single animal is fit.
    Much like we have heard today in these testimonies, it is 
an incredibly uncomfortable environment to be put in a position 
as an inspector to have to oversee the wholesome and humane 
status that comes with that legend.
    Mr. Kucinich. Finally, what do your consumers tell you 
about the pre-slaughter handling of the animals they are 
consuming, and does it matter to them?
    Mr. Eggleston. It definitely does matter. I know my 
customers on an individual basis. I speak to hundreds of them 
every week. We have been doing this for a decade. We also took 
some video clips of our customers to let them express to you--I 
will make that available to your committee.
    Mr. Kucinich. We would appreciate that. And I want to thank 
the witnesses and just make some closing remarks here.
    I want to go back to the previous panel and tell Dr. Wyatt 
how much we appreciate the fact that your courage resulted in 
us being able to bring this forward.
    I want to let Mr. Painter know that we know there are a lot 
of good people working for the USDA, and this subcommittee just 
wants to make sure that those people who really want to do 
their job can do it and aren't taking the wrong cues from 
upper-line management, just so you know. We appreciate the work 
that you are doing.
    Mr. Eggleston, you are testimony that there are producers 
who are doing the right thing and they want to do the right 
thing. They want to set high standards.
    And Mr. Pacelle, the public owes you and the Humane Society 
a debt of gratitude for taking the risks and sending inspectors 
undercover to be able to show what is really happening so we 
break this myth of everything is just fine and no one has to 
worry about the food they consume. It is OK because it has that 
stamp on there. You have really performed a public service, and 
as chairman of this subcommittee I really appreciate it.
    We are going to maintain an ongoing interest in this issue, 
so as you get information, the Humane Society does any 
investigations, you can come forward and we will look at it. 
And the same thing, Mr. Painter. If you get information, if 
there are whistleblowers, people trying to do the right thing, 
they are getting hammered, if that still happens--and it may 
not under the new administration--you can bring that forward to 
this subcommittee.
    I just want to make a final personal comment, and that is, 
as chairman of this subcommittee, I have conducted this hearing 
in a way that has been impartial, but, you know, I don't eat 
meat. I don't eat chicken. I don't eat fish. Now, I don't feel 
that I have a right to tell people what to eat, but I don't do 
that. The Humane Slaughter Act, Mr. Pacelle, I think is an 
oxymoron, a contradiction in terms. However, one thing I will 
guarantee you, that for those Americans who do consume those 
food products and who rely on the Government to make sure that 
those products are safe, this subcommittee will relentlessly 
pursue the food safety issues, and the industry can count on 
that.
    This is the Domestic Policy Subcommittee. I am Congressman 
Dennis Kucinich, Chairman of the subcommittee.
    Today's hearing has been ``Continuing Problems in USDA's 
Enforcement of the Humane Methods of Slaughter Act.''
    I want to thank all the witnesses in both panels. I want to 
thank those in attendance and those who are watching.
    This committee stands adjourned.
    [Whereupon, at 5:39 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5127.058

[GRAPHIC] [TIFF OMITTED] T5127.059

[GRAPHIC] [TIFF OMITTED] T5127.060

[GRAPHIC] [TIFF OMITTED] T5127.061

[GRAPHIC] [TIFF OMITTED] T5127.062

[GRAPHIC] [TIFF OMITTED] T5127.063

[GRAPHIC] [TIFF OMITTED] T5127.064

[GRAPHIC] [TIFF OMITTED] T5127.065

[GRAPHIC] [TIFF OMITTED] T5127.066

[GRAPHIC] [TIFF OMITTED] T5127.067

[GRAPHIC] [TIFF OMITTED] T5127.068

[GRAPHIC] [TIFF OMITTED] T5127.069

[GRAPHIC] [TIFF OMITTED] T5127.070

[GRAPHIC] [TIFF OMITTED] T5127.071

[GRAPHIC] [TIFF OMITTED] T5127.072

[GRAPHIC] [TIFF OMITTED] T5127.073

[GRAPHIC] [TIFF OMITTED] T5127.074

[GRAPHIC] [TIFF OMITTED] T5127.075

[GRAPHIC] [TIFF OMITTED] T5127.076

[GRAPHIC] [TIFF OMITTED] T5127.077

[GRAPHIC] [TIFF OMITTED] T5127.078

[GRAPHIC] [TIFF OMITTED] T5127.079

[GRAPHIC] [TIFF OMITTED] T5127.080

[GRAPHIC] [TIFF OMITTED] T5127.081

[GRAPHIC] [TIFF OMITTED] T5127.082

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
